No. 20 - 5519

IN THE

4.4

SUPREME COURT OF THE UNITED STATES

RICHARD E. WANKE - PETITIONER
vs.
STATE OF ILLINOIS — RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
ILLINOIS APPELLATE COURT

Petition for Rehearing

Richard Wanke, Pro Se
Register No: K77902
PO Box 1000
Menard, IL 62259
(779) 348 - 2487

DEC 14 2020
C
CE Of "8 LERK
••
US
SUP
SUPREME CO RT

No, to-5513
IN THE
SUPIZEME COURT OF THE UNITED STATES
RICHARD WANIkE,
V.

PETITIONER,

STAVE OF I LLINOIS.
RESPoNDENT,

PET in tw Fok ItEHEARIgG
PETITION FoRv-/Rfror cegnoRAP4
ILLINOIS APPELLATE COURT
No, 2-17-0373
AI' PE AL FROM CI RLIET COURT OF
W NNES5AG-0 °stiffly, LuNots
No, ti+ CF92.2

PETITION FOR REHEARING
tik

Now COMES PETITIONER, RICHARD vVANKE, PROSE SEEKING THE
COURT To APPLY JUDICIAL DISCRETION AND GRANT A RE‘e;EAVING
AND REVIEW or HIS ENTIRE WRATO CERTIORARI UNDER RULE Le 4.
EIESTATES :
I. PETITIONER TIMELY FILEDA WRIT OFCERTI °RAIZ" INHI CH WAS DENIED
ON i 0, 09,9_0 SUBSEQUENT MINE CoNFERENCE DATE, PETITIONER
SOUGHT To SUPPLEMENT THE FILING WITH A MOTIONTOSUPPLEMENT
PETITION UNDER ROLE 16,2. THIS WAS rimEd PILE D ANO IS ENCLOSED.
'L. AT THET ME OF DENIAL IT WAS UNCLEARTO THE PETiTIoNER IF THIS
ADDED ARGUMENT AND BIFURCATED FILING WAS CONSIDERED. THE ADDED
FILING WAS NOT DOCKETED, PETITIONER HAS LEARNED THAT THE. MOTION)
ARRIVED NEARLY A MONTH AFTER DEPOSIT IN THE OIS,mAIL AND A NOTE
OF RECEIPT WAS RECORDED IN THE RECORD,
3- DURING THIS TiME OF DETERMINATION, PET ITIONER SOUGHT TO ONTACT
THE CLERK OP THE COURT. PETITIONER'S FRIENDS SPOKE VvITI-A CASE
ANALYST TAKE LEI/1'VA N WHO OFFERED HELP AND INFORMATI0M
MATTERS WERE EXPLAINED CoNCERNI tJG THE COURTS "OFFS iTE
SCREENING FACILITY'; DELAYS DUET() CoUID, WORK-FROM-HOME PRoCEORES AND ti-iE LIKE,
I+. I\AEANti\H-TILE, M ENS ORE REVIEW OFTHE ENTIRE WRIT AND ADDED
ARGuMEI.17, PETITIONER TIMELY REA LED THE MOTIOkl TO suppLemENT
ALONG WITH AN ADDED MOWN RR RE i4EARittJG oN
THIES INAS
RECEIVED AND NOTED I NITHE RECORD I MR. LEVI-TAN HAS ADVISEP THAT
THIS PILING IS eDE I KG RETURNED FoRCDPRECTIONS, SEE ENCLOSED.
S> I HEREBY CERTIFY THAT THE PETITION FOR REHEARING is ?RESENTED
IN GOOD PAiTH AND NOTFoR DEUW, THE GROUNDS OP THE PETITION ARE
LIMITED To IIITERVE
CIRCUMSTANCES OF SUBSTANTIAL o2CohrIRALII4G- EFFECT
THER.EFORE, UNDER RULE 44 AND WITH THESc.- ASSORAN3ES, PETITIONER
REQUESTS A RaiCARING
oN THE EN TIRE Ty OF TI-12 WRIT, RESPECTFULLY,
DATE : 11, 2,(1 240
MENAROi I LUNO15 02259

RI

-IARD MIKE. K77902

VERIFICATION OF CERTIFICATION

r, RICHA KO WAN KE

, the undersigned, certify and state that:

1.. Iam the (Petitioner/ResiddiNkm4), in the above-captio
ned legal
matter;
I have read the foregoing application and have knowledge
of its
contents; and,
Under penalties ad proVided by law pursuant to Section
1-109 of the

4

Code of Civil Procedurei,I certify that the statements
set forth in the foregoing motion and this affidavit are true and correct excep
t as to matters
therein stated to be on information and belief, and as
to such matterszl certify that I believe the same to be true.

)vcy
:t.49
/
.
„,
4{

Af iant's S n tune
SUBSCRIBED and SWORN to before me
this

2 5- day

of

it Lf gf;
jr

_rj

OFFICIAL SEAL

PATRICIA B. STEWART

Notary Public - State of Illinois
My Commission Expires 1/03/2022

No , LO - 5511
IN THE
SUPREME COUR-IOCTHE UNITED STATES
RICHARD WANKE,
V.
STATE OF ILLINOI S,
RESPONDENT,

Mai CH FOR. RECKSI IT
OF COUNSEL
PET iTiat-1 FOR W SIT OF CERTIORARI
I LLIKOIS APPELLATE CouR_T
No, 2-t7- 0373
APPEAL FROM CIRCUIT coug:roF
witaiEsAao COUNTY, I LLI worS
No. 114CF 922

MOTION FOR RECRUITMENT OF CO UN SE L
THE •PETaTIONER STATES :
(.4
1. t , RICIAARO WANKE PRO SE, AM uNABLE To AFFORD AN AlToRREY, AND
I ASK THE COURT To RECRUIT CouN GEL t UNDERSTANDTHATTHE COURT
WILL DOT4-1IS ONLY IF CERTAIN CRITERIA AR.E MET.
2. t HAVE. TRIED TO RECRUIT CQUIN1SE L MYSELF, APPROACHING- FORMER
APPELLATE AKIO APPOINTED COUNSEL CERTAit.1 LEGAL PROFESSIONALS AND
LAW PRDFESSoRS L CORRESPOND WITS-1 , FORTUNATELY THEY ANSWER
VARIOUS QUESTIONS I HAVE, But OUE To REST RICTiON S ARE ut..1A-a,La
TO HELP OR REPRESENT ME PRO gekk .
3. I HAVE BEEN INCARCERATED CONTINUOUSLY SINCE 2008, CURRENTLY
HELD 114 CUSTODY AT MSU MENARD C,, IN MENIARD, ILLINOIS. DURING
Ti-IC- COURSE OP M1/4/ DETENTION L PAVE BECOME DEAF. MY I-kePJ1NG
I MPAITZMEHT MA HES IT DIFFICULT TO COMMUNICATE AND TO RECEIVE
CERTAIN NEEDED LEGAL SEROCES,
cf. t A1A,NoT NOW NOR HAVE L PREVIOUSLY BEEN REPRESENTED ISY AN
ATTORKJE-.Y RECRUIT EV OR APPOINTED BYTH ECOURI
-11-11G OR ANY
OTHER KAATrER ESEFoRaTI-kis COURT.
I PREVIOUSLY Ft LED At-I APPLICATIOQ FOR LEAVE To PgrfEED hi/ FteMA
PAUPER/5 IN THIS CASE, AND IT IS1-RUE AND CORRECT REPRESEtvTAT1ON
OF' MY CURRENT I=fNANCJAL STATUS,
THE HIGHEST LEVEL OF EDUCATION r HAvE COMPLETED IS COLLEGE GRADUATE.
THUSFAR HAvE BEEN ABLE To REPRESENT MYSELF. IluT, BECAUSE
or FACT LITY-WIDE LOCI- qpoW NS; STAY-AT-HOME ORDERS BYTE-tE ILLINOIS
GOVERNOR] DELAYS WITH USRS i" ACCESS TO INSTITUTIONAL LEGAL SERthCE,5
AND MY DISABILITY; LAM BECOMING LESS ABLE TO MEET11-1E.C1-1ALLENGES
.
AccoRDINGLy, t HERE8-i CERTIFY THAT THIS FILING is PRESENTED IN corn
FAITH AND NOT FORME PURPOSES OF DELAY, THE REQUEST IS 50 INTERVeN (NG CI Rcu STANc E_S or SUBSTANIIIAL CR CONTRoLUNG EFFECT Ob Not LimnPSYrrioNER's RIGHT-To ACCESS THIS COURT:
WHEN FORE PETITIONER REstyc.TFULLy REQUESTS THAI COUNSEL BE SOUGHT
Also RE cRuaED TO REPRESENT FETITIDNERIt411415 MATtER.
REsrECT FOLLY,
DATE: I 1•25.2.0
7.C4Ae--d-MetiAsp, t LUhJO15 62259
Ric v. 1.) , Ke }<77932

No. 20 — 5519
In The Supreme Court Of The United States
Richard E. Wanke, Petitioner
v.
State of Illinois, Respondent

Affidavit

MCITiCa FOP. RagUrt MEAT OF tinsel..

As required by Supreme Court Rules 29, 39, and 12.2,1 have served the enclosed

rETITION rOg.

2EkCAV.Wa& _ on each party above or that party's counsel, and on every other person required to be served,
including one copy of the foregoing to the Clerk of the US Supreme Court at: Supreme Court of the
United States, 1 First Street, NE, Washington, DC 20543; via deposit into the internal mail system at
the Menard Correctional Center, located at PO Box 1000, Menard, IL 62259, via first-class postage,
prepaid.
"I declare under penalty of perjury that the foregoing is true and correct." Executed on

liervotb4-

2020.

IN THE

SUPREME COURT OFTHE UNITED STATES

I

RI Cl4ARAD VVANIKE
44,340fiffipetitioner
No.

Vs.-

2D-5519

STATE OF I LIANOIS
aefeRflam/Respondent

PROOF/CERTIFICATE OF SERVICE
/To: U.S.SUPREME COURT, IFIRST ST.
NE, WASHINGTON, DC 20543
To: OM Olft• Left BAUER, SA APP. PRO.
2032 LASKI w AVE., ELGIN, IL, 60123

To: SA MARILYN HtTE-RoSS
tovihIN. Co-;RocKFoRoiIL, eio
TO: NI, M. GLICK, IL. Arr. GEN, OFFICE
100 W. RmooLPH Sr - Wu FL
CHICAGO, IL. 61101

, 2020.I
Art tstourtne.grz.
PLEASE TAKE NOTICE that at: 5
MSU/
MENAg0
placed the documents listed below in the institutional mail at
Correctional Center, properly addressed to the parties listed above for mailing through the
United States Postal Service.

PETITION FOR REHEARING;

ftiatoW FOR REcRurt MEN-I OF COUN5eL;

PKEVIOUS VI

PILED a) REANWE.0

MO-MU FOR 9-6 140PRANG 1.) ma-Rohm) 60tLfmtur peTITIoN uwoeft Rutz- 16,s
Pursuant to 28 USC 1746, 18 USC 1621 or 735 ILCS 5/1-109 I declare, under penalty of perjury
that I am a named party in the above action, that I have read the above documents, and that
the information contained therein is true and correct to the best of my knowledge and belief.

DATED:

1 25;247
Nam
IDOC No.

RIC. ARO WANKS

K77402

MSUMIENARD Correctional Ctr.
10400
P013
IL
mENARD
61259

Revised 4/15/16

Additional material
from this filing is
available in the
Clerk's Office.

